December 18, 2009

WINIFRED G. GROUX
DISTRICT MANAGER, SAN FRANCISCO DISTRICT

SUBJECT:          Audit Report – City Delivery Efficiency Review – San Francisco Napoleon
                  Street Station (Report Number DR-AR-10-002)

This report presents the results of our City Delivery Efficiency Review of the San
Francisco, CA Napoleon Street Station1 (Project Number 09XG006DR000). Our
objectives were to assess the overall station efficiency and identify cost savings
opportunities. This self-initiated audit addresses operational risk and is the first in a
series of city delivery efficiency reviews. See Appendix A for additional information
about this audit.

Conclusion

The Napoleon Street Station was not operating at peak efficiency and management
could reduce city delivery costs. Our benchmarking comparison of five similar delivery
units showed the Napoleon Street Station used 54,975 more workhours than necessary.
We also found management did not adjust workhours to the changes in workload. For
example, the Napoleon Street Station volume declined by 31 percent from fiscal year
(FY) 2006 through 2008 while workhours deceased only by approximately 4 percent.2.

These conditions occurred because management (1) did not periodically evaluate
operating efficiency and staffing at the Napoleon Street Station and (2) oversight of
office and street processes were sometimes insufficient. Elimination of time-wasting
practices and increased focus on efficiency could allow management to reduce
workhours. Some examples include ensuring:

            Cased mail is available when carriers arrived for duty.

            Mail handling equipment is sufficient and available.

            Vehicle inspection process is efficient.


1
  The Napoleon Street Station is located in the Pacific Area of the San Francisco District. The Napoleon Street
Station delivers mail on 151 city routes with more than 71,000 delivery points. During FY 2008, the Napoleon Street
Station used over 400,000 office and street workhours. The Napoleon Street Station has the following five-city
delivery units located within the Station: The delivery units are Station J (Clayton), Station F (Excelsior), StoneTown,
Visistacion, and West Portal.
2
  While we do not expect the Napoleon Street Station to adjust workhours in proportion to the drop in workload, it
should be able to reduce workhours over time similar to decreases at other units as well as the district.
City Delivery Efficiency Review -                                                 DR-AR-10-002
 San Francisco Napoleon Street Station


          Electronic badge reader (time clock) is optimally located.

          Mail satchels are loaded before they arrive at first delivery point.

          Carriers are timely and correctly clocking into afternoon (p.m.) office time.

          Carrier start times are properly scheduled to prevent time delays and work
           floor congestion.

          Floor plan configuration allows visibility during office operations. See
           Appendix B for additional information about this issue.

Consequently, the Napoleon Street Station employees were using more workhours than
necessary to deliver the mail. By making adjustments to its operations, the Napoleon
Street Station’s overall productivity would increase, thereby saving approximately $2.1
million annually, or $21,308,433 over 10 years. See Appendix C for additional
information about this issue.

We recommend the manager, San Francisco District:

1. Reduce workhours by 54,975 at the Napoleon Street Station to achieve an
   associated economic impact of $21,308,433 over 10 years.

2. Periodically evaluate operating efficiency and staffing at the Napoleon Street Station
   to determine whether further workhour adjustments are necessary based on
   workload.

3. Reinforce Postal Service policies and procedures for supervising city and street
   operations in delivery units and eliminate time-wasting practices as appropriate.

Management’s Comments

Management agreed with the findings and recommendations in our report. In response
to recommendation 1, management stated they began making improvements that will
increase overall efficiency. For example, in week 7 of FY 2010, they reduced
workhours at the Napoleon Street Station by 7,000 hours. They indicated the FY 2010
strategy for the station was to achieve a 40,000-workhour reduction for its carriers.
Assuming workload conditions remain the same, management indicated they anticipate
balancing the recommended workhour reduction in subsequent years. Management
also stated they changed reporting times, acquired and located key containers to
reduce congestions around carrier operations, changed start times to reduce time spent
waiting for mail, and improved mail flows from the plant.

In response to recommendation 2, management stated that the District will conduct a
quarterly review of Function 2 (Delivery) staffing and operational efficiencies consistent



                                              2
City Delivery Efficiency Review -                                             DR-AR-10-002
 San Francisco Napoleon Street Station


with Morning Standard Operating Procedures (AM SOP) reviews and Modified Interim
Alternate Route Adjustment Process (MIARAP).

In response to recommendation 3, management stated they recently selected a new
manager well versed in day-to-day operations, delivery and services processes, and
supervisor development. The postmaster, San Francisco District, and staff increased
their visits to the Napoleon Street Station and reminded employees and managers to
adhere to policies and procedures, established work methods, and earned workhours.
See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and findings. Management’s corrective
actions taken and planned should resolve the issues identified in the report.

The OIG considers recommendation 1 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, director, Delivery,
or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Drew T. Aliperto
    Phil Knoll
    Sally A. Haring




                                             3
City Delivery Efficiency Review -                                             DR-AR-10-002
 San Francisco Napoleon Street Station


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Delivery operations are the Postal Service’s largest operational function, accounting for
approximately 45 percent of salary expenses and workhours. Despite an annual
increase of f approximately 1 million delivery points, delivery operations used 36.5
million fewer workhours in FY 2009 because of effective growth management,
increased use of automation, standardization of best practices, improved productivities,
and complement controls. Although delivery used fewer workhours, workhour reduction
has not kept pace with declining mail volume. During FY2009, mail volume declined by
12.7 percent compared to FY 2008. Postal Service officials are expecting a future
decline in mail volume of 10 million pieces.

Although the Postal Service has achieved significant gains in automated mail
processing plants, mail delivery remains primarily a manual process. To effectively
manage this process and improve productivity, delivery managers must eliminate
process inefficiencies and manage costs by accurately matching workload to
workhours, adjusting or eliminating unnecessary routes, managing staff resources, and
following a rigorous standardization of best practices.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to assess the overall efficiency of the Napoleon Street Station and
identify cost-saving opportunities. To accomplish our objectives we:

          Identified all units expending more than 250,000 delivery hours in FY 2008.

          Selected 16 similar units in terms of the number and type of routes and
           deliveries.

          Computed office and street productivity for each of the 16 delivery units
           selected.

          Ranked each of the 16 delivery units from the highest to the lowest in terms of
           office and street productivity.

          Selected the top five of the 16 delivery units and computed the average
           productivity to be used as a benchmark against the unit selected for review.

          Selected the Napoleon Street Station as the review unit because the Pacific
           Area had a strong history of proactively reducing workhours, and the San
           Francisco District was among the less productive units in the area.




                                             4
City Delivery Efficiency Review -                                             DR-AR-10-002
 San Francisco Napoleon Street Station


After selecting units for review, we used the average of the top five comparable 16
units to benchmark productivity that should be achieved by the selected units. At the
selected units, we:

          Obtained, reviewed, and analyzed delivery unit data related to office and
           street operations.

          Conducted interviews on-site and obtained information on carrier operations,
           unit operations, processes, and procedures.

          Conducted physical observation of office and street delivery operations.

          Reviewed documentation and applicable policies and procedures for city
           delivery, including Handbook M-39, Management of Delivery Services and
           Handbook M- 41, City Delivery Carriers Duties and Responsibilities.

We relied on data primarily from the Delivery Operations Information System (DOIS)
and obtained data from October 1, 2005, through May 31, 2009, but did not test controls
over this system. However, we checked the reasonableness of results by confirming
our analysis and results with management and multiple data sources.

We conducted this performance audit from April through December 2009 in accordance
with generally accepted government auditing standards and included such tests of
internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on November 18, 2009, and included
their comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG identified four audits related to our objective that were issued over the past 5
years.




                                            5
      City Delivery Efficiency Review -                                                          DR-AR-10-002
       San Francisco Napoleon Street Station




                                          Final Report         Monetary
   Report Title       Report Number           Date              Impact                       Report Results
Timely City           DR-AR-08-001         10/11/2007             N/A       The audit confirmed that the Chicago District
Delivery –                                                                  had difficulty with timely mail delivery.
Chicago District                                                            Specifically, delivery performance indicators
                                                                            showed office performance was well below
                                                                            standards and street performance was at an
                                                                            all-time low. Management agreed with our
                                                                            findings and recommendations to correct the
                                                                            problems.
Capping Report        DR-AR-06-004         3/31/ 2006          $7,061,060   This report summarized a series of five
City Letter Carrier                                                         reports on city letter carrier operations.
Operations                                                                  Opportunities existed to improve the
                                                                            management of city letter carrier operations
                                                                            within the U.S. Postal Service. Specifically,
                                                                            we determined delivery facility supervisors
                                                                            and managers could more effectively match
                                                                            workhours with workload and improve
                                                                            delivery efficiency by consistently using
                                                                            operational data from the DOIS.
                                                                            Management agreed with our findings and
                                                                            recommendations to correct these problems.
City Letter Carrier   DR-AR-05-009             12/2/2004         $92,726    The report outlined opportunities to improve
Operations – Rio                                                            management of city letter carrier operations
Grande District                                                             in the Rio Grande District. Delivery facility
                                                                            supervisors and managers did not adequately
                                                                            match workhours with workload. Also,
                                                                            supervisors and managers did not effectively
                                                                            use DOIS to manage daily operations and
                                                                            delivery unit supervisors and managers did
                                                                            not consistently perform street management
                                                                            or effectively use managed service points to
                                                                            monitor city letter carriers’ street time to
                                                                            correct negative trends. Management agreed
                                                                            with our findings and recommendations to
                                                                            correct these problems.




                                                           6
      City Delivery Efficiency Review -                                                        DR-AR-10-002
       San Francisco Napoleon Street Station


                                          Final Report       Monetary
    Report Title      Report Number           Date            Impact                     Report Results
City Letter Carrier   DR-AR-04-005         7/26/2004            N/A     The report found that opportunities exist to
Office Preparation                                                      improve Dallas District city letter carrier office
in the Dallas                                                           preparation operations. Specifically, there
District                                                                were impediments that adversely impacted
                                                                        delivery supervisors’/managers’ ability to
                                                                        adequately match workhours with workload.
                                                                        In addition, city letter carriers’ work activities
                                                                        were not always appropriate to ensure they
                                                                        departed the delivery units as scheduled.
                                                                        Further, supervisors/managers did not
                                                                        effectively use DOIS to assist in managing
                                                                        office activities. Management disagreed with
                                                                        our findings and recommendations to correct
                                                                        these problems. We met with management
                                                                        on June 29, 2004 to address their
                                                                        disagreement. Further discussions with
                                                                        management resulted in report revisions to
                                                                        reflect findings at the specific delivery units
                                                                        visited in the Dallas District. Management's
                                                                        action taken or planned should correct the
                                                                        issues identified in the report.




                                                         7
City Delivery Efficiency Review -                                                         DR-AR-10-002
 San Francisco Napoleon Street Station


                                 APPENDIX B: DETAILED ANALYSIS

Operation Efficiency

The Napoleon Street Station was not operating at peak efficiency and could reduce city
delivery costs. The Napoleon Street Station used 54,975 workhours more than
necessary. Our benchmarking comparison revealed the Napoleon Street Station’s
productivity was 288.51 mailpieces per hour compared to 348.05 mailpieces per hour
for the average of the top five similar units. In other words, the Napoleon Street Station
processed approximately 60 pieces of mail per hour less than other similar units.
Similarly, street productivity for the Napoleon Street Station was 80.81 mailpieces per
hour compared to the average of 93.84 mailpieces per hour for the top 5 similar units (or
13 fewer deliveries per hour). See Table 1 below.

    Table 1. Napoleon Street Station Productivity Compared to Average Productivity
                                   of Top Five Units

                                                    Average
                                      Napoleon    Productivity
                                                                        Productivity   Workhour
                                     Productivity  Top Five
                                                                         Variance      Savings
                                       Factor     Comparable
                                                     Units
          Office Productivity             288.51       348.05                 59.54        17,772

         Street Productivity                 80.81             93.84          13.03        37,203
         Productivity Savings                                                              54,975
         Source: OIG

Furthermore, the Napoleon Street Station’s workhour utilization was excessive in
relation to the cased3 mail volume workload. For example, our trend analysis of the
Napoleon Street Station’s workload (cased mail volume) showed a decrease by 31
percent from FYs 2006 through 2008. See Table 2. However, over this same
timeframe, the Napoleon Street Station only reduced its workhours by 4 percent. While
we do not expect the Napoleon Street Station to adjust workhours in proportion to the
drop in workload, it should be able to reduce workhours over time similar to decreases
at other units as well as the district.




3
    Manual sorting that separates mail by a scheme or ZIP Code range.


                                                          8
City Delivery Efficiency Review -                                                                          DR-AR-10-002
 San Francisco Napoleon Street Station




                  Table 2. Napoleon Street Station Cased Mail Volume and Workhours




       Source: OIG analysis

The San Francisco District’s workload decreased by 28 percent, which is 3 percent less
than the Napoleon Street Station’s workload. However, over this same time, the San
Francisco District reduced its workhours by 6 percent, which is 2 percent more than the
Napoleon Street Station’s decrease. See Table 3.

            Table 3. San Francisco District Cased Mail Volume and Workhours




    Source: OIG

Conservatively, the Napoleon Street Station reduced its workhours by 2 percent to
match workload in proportion to the San Francisco District’s workhour reduction.4


4
  Unit reductions in workhours are impacted by the National Association of Letter Carriers Agreement, 2006-2011.
This agreement requires that 88 percent of the staff for postal installations include full-time city carriers. Because full-
time regular carriers are paid for 40 hours per week, workhours may not decline in proportion to mail volume. We
performed a staffing analysis for the Napoleon Street Station that showed that 88 percent of the staff were full-time
regular carriers.


                                                             9
City Delivery Efficiency Review -                                                                      DR-AR-10-002
 San Francisco Napoleon Street Station


These conditions occurred because management (1) did not periodically evaluate
operating efficiency and staffing at the Napoleon Street Station and (2) oversight of
office and street processes were sometimes insufficient. Elimination of time-wasting
practices and increased focus on efficiency could allow management to reduce
workhours.

         Mail Availability
         Some mail was not available and routed to carriers cases in a timely manner.
         For example, Express Mail did not always arrive timely and distribution mail
         clerks did not route mail timely to cases. Supervisors did not always track and
         coordinate mail arrival time with the plant to ensure mail was available when
         carriers arrived for duty. Also, mail was not always efficiently routed. For
         example, some clerks were not scheme-trained5 and not always familiar with the
         street numbers or addresses for certain city blocks to distribute mail timely.

         Mail Handling Equipment
         Insufficient mail-handling equipment also contributed to the Napoleon Street
         Station’s efficiency problems. Carriers often had to search for or use
         inappropriate mail-handling equipment, thereby increasing office and truck
         loading time between 5 and 15 minutes. For example, hampers6 — the preferred
         mail-handling equipment — allow carriers to load mail for each vehicle at the
         street level; however, they were only available for about 40 percent of the routes.
         Circumstances often forced carriers to use “Nutting Trucks.”7 The nutting truck
         by design allows loading of mail from the loading docks bays instead of at the
         street level. This practice wasted time because these bays can only
         accommodate the simultaneous loading of two vehicles.8 See Illustration 1.




5
  Knowledge demonstrated by a letter carrier or distribution clerk concerning an address that belongs to a specific
carrier route in a specific ZIP Code area.
6
  Postal Service Handbook M-39, Management of City Delivery, Section 3-1-98,117.1(i) states that sufficient
equipment — such as sacks, trays, and hampers that carriers need — must be readily accessible.
7
  A wheeled container used to move or store small quantities of mail within a Postal Service facility. The container,
which consists of a platform and two slatted ends to restrain loads, can be moved by hand or by tractor. The
container is named after its designer, Elijah Nutting.
8
  The size, shape, and design of nutting trucks do not permit the use of doors at street level.


                                                          10
City Delivery Efficiency Review -                                                                 DR-AR-10-002
 San Francisco Napoleon Street Station




          Illustration 1. Carrier Waiting to Load Vehicle from Rear Dock Bay




         Source: OIG



          Morning Vehicle Inspections
          Carriers often waited in line to obtain keys to accomplish morning vehicle
          inspections. Specifically, 30 minutes after carriers began their tours; all carriers at
          the Napoleon Street Station ceased casing mail and proceeded to the
          supervisor’s desk to wait in line up to 5 minutes to sign for delivery vehicle keys.
          Postal Service policy9 requires keys to be located adjacent to time-recording
          equipment. See Illustration 2.




9
    Postal Service Handbook M-39, Management of Delivery Services, Section 117.1(b), dated March 1, 1998.


                                                         11
City Delivery Efficiency Review -                                               DR-AR-10-002
 San Francisco Napoleon Street Station



           Illustration 2. Carriers Waiting to Obtain Keys for Vehicle Inspections




         Source: OIG

       Electronic Badge Reader
       Placement of the time clock or electronic badge reader for the West Portal Unit
       was located at the rear of the Napoleon Street Station. Carriers returning from
       street delivery had to:

              Spend 2 to 3 minutes walking to the rear of the Napoleon Street Station to
               clock into p.m. office time;

              Return to the front of the Napoleon Street Station to turn in equipment and
               scanners; and

              Return to the rear of the Napoleon Street Station again to clock out for the
               end of their tour.

       Because carriers are still on street time during this process, the practice inflated
       street time between 7 and 10 minutes.

       Loading Satchels for First Deliveries
       Carriers did not consistently load mail in satchels at the office for their first
       delivery. On several occasions, we observed carriers loading satchels after
       arriving at the first delivery point. This activity on the street averaged
       approximately 7 minutes. Postal Service policy requires employees to load mail
       in the office before delivery.



                                             12
City Delivery Efficiency Review -                                             DR-AR-10-002
 San Francisco Napoleon Street Station




       Afternoon (P.M.) Office Time
       Postal Service policy allows a standard 5 minutes for carriers to clock into p.m.
       office time. We observed some carriers waiting in line up to 10 minutes to clock
       into p.m. office time after returning from their routes. Because most of these
       carriers returned to the office by 3:35 p.m., they usually spent the remainder of
       their time – about 15 minutes – at their cases before clocking out for the day.
       See Illustration 3.

           Illustration 3. Carriers Waiting to Clock In After Completing Routes




        Source: OIG

       Carrier Work Start Time
       Napoleon Street Station management routinely scheduled the151 carriers to start
       office operations at the same time. This created congestion on the office floor
       and contributed to the shortage of mail-handling equipment. It also contributed to
       inefficient use of between 15 and 30 minutes for carriers waiting to accomplish
       key office functions.

       Floor Plan Configuration
       The current floor plan configuration for one location was congested because of
       space constraints, causing carriers to use extra time to load mail for transporting
       to delivery trucks. The Station J (Clayton) Unit located at the Napoleon Street
       Station was the most congested with the least favorable floor plan. The
       supervisor did not have a clear line-of-sight to all carriers during office
       operations. The congestion also caused some carriers to load their mail-
       handling equipment outside of their casing area, thereby, using more time than
       was otherwise needed. During the audit, management initiated action to change



                                            13
City Delivery Efficiency Review -                                                DR-AR-10-002
 San Francisco Napoleon Street Station


           the floor configuration so we are not making a recommendation. Postal Service
           policy requires that workroom floors are arranged to minimize walking and to
           facilitate the orderly flow of mail and equipment. It requires aisles wide enough
           for passage by the carrier and any necessary equipment.”10 See Illustration 4.


           Illustration 4: Congestion at Station J (Clayton) Due to Space Constraints




           Source: OIG

By reviewing workhour and workload use and improving oversight of office and street
processes, management can increase Napoleon Street Station productivity, thereby
saving approximately $2.1 million annually, or $21,308,433 over 10 years. See
Appendix C.




10
     Handbook M-39, Section 117.1(f), dated March 1, 1998.


                                                         14
              City Delivery Efficiency Review -                                                                               DR-AR-10-002
               San Francisco Napoleon Street Station


                                 APPENDIX C: OIG CALCULATION OF MONETARY IMPACT

              We estimated the monetary impact for the Napoleon Street Station to be $21,308,43311
              in funds put to better use, discounted over 10 years. The Napoleon Street Station can
              save 54,975 workhours, which is the equivalent of about 30 positions that could be
              eliminated through attrition. We calculated savings using the average office and street
              productivity level12 for the top five similar units.13


                                            Table 4. Napoleon Street Station Workhour Savings


                   Year          Year           Year         Year         Year         Year         Year         Year          Year         Year

                          1             2              3            4            5            6            7            8             9            10


   Reduce
   54,975
   annual
  workhours
   over 10
    years.

                    $1,282,859   $2,599,073     $2,632,861   $2,667,088   $2,701,761   $2,736,883   $2,772,463   $2,808,505    $2,845,016     $2,882,001


    Total
                    $1,282,859   $2,599,073     $2,632,861   $2,667,088   $2,701,761   $2,736,883   $2,772,463   $2,808,505    $2,845,016     $2,882,001



 Discounted
 at 3.5%
                    $1,282,859   $2,599,073     $2,632,861   $2,667,088   $2,701,761   $2,736,883   $2,772,463   $2,808,505    $2,845,016     $2,882,001


 Present Value Savings over 10 years                                                                                                         $21,308,433

Source: OIG




              11
                 Workhours savings are calculated by multiplying the number of workhours saved by the Postal Service’s published
              city carrier labor rate of $46.67 for FY 2010.
              12
                 We calculated office and street productivity for all units identified as using more than 250,000 workhours. We
              determined office productivity by adding cased letters and cased flats volume and dividing that by carrier hours in the
              office using Labor Distribution Code (LDC) 21. We calculated street productivity by dividing total possible deliveries
              by total carrier hours on the street (LDC 22) and multiplying the results by 302 delivery days within a year.
              13
                 We reviewed similar units with at least 85 percent concentration of “park and loop” deliveries having 250,000 city
              delivery hours in Function 2B and at least 75 routes.


                                                                                 15
City Delivery Efficiency Review -                         DR-AR-10-002
 San Francisco Napoleon Street Station



                               APPENDIX D: MANAGEMENT’S
                                      COMMENTS




                                          16
